No.
In the

Supreme Court of the United States
RAUL FLORES-VILLALVASO, Petitioner
v.
UNITED STATES, Respondent
On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Ninth Circuit
Motion for Leave to Proceed
In Forma Pauperis
Pursuant to Rule 39.1 of this Court, Petitioner hereby asks leave to file
the attached Petition for Writ of Certiorari to the United States Court of
Appeals for the Ninth Circuit without prepayment of fees or costs and to
proceed in forma pauperis. Counsel was appointed pursuant to 18 U.S.C. ยง
3006A in the Court of Appeals.
Dated February 2, 2021.
s/S. Jonathan Young
S. JONATHAN YOUNG
Post Office Box 42245
Tucson, Arizona 85733-2245
(520) 795-0525
jon@williamsonandyoung.com
Counsel of Record for Petitioner

